App. 1
NOT TO BE PUBLISHED IN THE
OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), pro­
hibits courts and parties from citing or relying
on opinions not certified for publication or or­
dered published, except as specified by rule
8.1115(a). This opinion has not been certified for
publication or ordered published for purposes
of rule 8.1115(a).
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE
LEEDS MATTRESS STORES
INC., et al.,

B294238

v.

Los Angeles County
Super. Ct. No.
BC685311

HANMI BANK,

(Filed Oct. 27, 2020)

Plaintiffs and Appellants,

Defendant and Respondent.
APPEAL from a judgment of the Superior Court of
Los Angeles County, Patricia D. Nieto, Judge. Affirmed.
Neil Leeds, in pro. per., for Plaintiff and Appellant.
LimNexus, Lisa Y. Yang, Mark T. Hansen, and
Alexander Su for Defendant and Respondent.

:

App. 2
INTRODUCTION
Neil Leeds (Leeds) appeals from a judgment of dis­
missal after the trial court sustained without leave to
amend Hanmi Bank’s (Hanmi) demurrer to the second
amended complaint. Leeds and Leeds Mattress Stores,
Inc. (LMS) sued Hanmi for failing to provide LMS with
a promised increase in its line of credit, causing LMS
to fail and Leeds to file for bankruptcy. The operative
pleading asserts claims for violation of the Unruh Civil
Rights Act (Civ. Code, §§ 51, 51.5) (Unruh Act) and un­
fair business practices (Bus. & Prof. Code, § 17200 et
seq.). Leeds alleges that Hanmi never followed through
on its promise because it favored Korean customers
and customers of Korean descent over non-Koreans
like Leeds. The court sustained the demurrer to both
causes of action because the Unruh Act claim was,
among other things, time-barred and the unfair busi­
ness practices claim was derivative of the Unruh Act
claim. We affirm.
BACKGROUND
Leeds and LMS filed this action against Hanmi on
November 30, 2017. Leeds was an officer, owner, and
shareholder of LMS. In 2008, LMS and Leeds had a
$1,000,000 line of credit with Hanmi and the bank
promised to support LMS’s expansion by increasing its
line of credit. As of September 2008, Hanmi was in the
process of restructuring the line of credit to accommo­
date LMS’s business growth. When the time came to

i

t

App. 3
increase the line of credit, however, Hanmi did not
keep its promise.
The operative second amended complaint, filed in
June 2018, asserts two causes of action. The first cause
of action alleges Hanmi violated the Unruh Act by fail­
ing to offer LMS the same services and accommoda­
tions—increases in lines of credit—that the bank
offered its less credit-worthy customers of Korean de­
scent. According to Leeds and LMS, Hanmi discrimi­
nated against them because Leeds is Caucasian and
born in the United States. The second cause of action
alleges that Hanmi’s preferential treatment of custom­
ers of Korean descent in violation of the Unruh Act
constitutes an unfair business practice.
Because of Hanmi’s alleged illegal discrimination,
LMS went out of business and Leeds suffered a nerv­
ous breakdown and was forced to file for personal
bankruptcy in January 2014. The pleading also alleges
that Leeds and LMS did not have reason to suspect
that Hanmi’s illegal discrimination was the cause of
their damages until August 2017, when they consulted
with an attorney.
Hanmi demurred to both causes of action on vari­
ous grounds including, as relevant here, that the Un­
ruh Act claim was time-barred. The bank contended
that this claim accrued no later than January 2014,
when Leeds filed for bankruptcy due to Hanmi’s failure
to provide LMS with the promised increase in its line
of credit. Because the Unruh Act claim was subject to
the two-year limitations period in Code of Civil

App. 4
Procedure1 section 335.1, Leeds and LMS did not file
their lawsuit until November 2017, and the pleading
lacks sufficient delayed discovery allegations to over­
come the statute of limitations, Hanmi argued its de­
murrer should be sustained without leave to amend.
In their opposition to the demurrer, Leeds and
LMS acknowledged that Hanmi informed Leeds, be­
tween 2008 and 2010, that it could not provide LMS
with the promised credit line due to regulatory over­
sight and controls. They also did not dispute the bank’s
contention that the Unruh Act claim was subject to a
two-year statute of limitations. Instead, Leeds and
LMS argued that the statute of limitations did not
begin to run until August 2017, when Leeds consulted
with an attorney who had some familiarity with bank­
ing discrimination.
The court sustained the demurrer without leave to
amend on several grounds and entered a judgment of
dismissal in favor of Hanmi. Leeds filed a timely notice
of appeal.2
DISCUSSION
Leeds contends the court erred in sustaining the
bank’s demurrer to his Unruh Act claim without leave

Undesignated statutory references are to the Code of Civil
Procedure.
2 In January 2019, this court dismissed LMS’s appeal. This
court also denied LMS’s subsequent motion to recall the remit­
titur and to reinstate the appeal.

App. 5
to amend.3 He argues the statute of limitations for this
claim was not time-barred under the delayed discovery
rule. Leeds also contends he has standing to bring an
Unruh Act claim and he alleged sufficient facts to
state a cause of action. Because we hold that the
court properly sustained the demurrer on timeliness
grounds, we do not reach Leeds’s other arguments.
1. Standard of Review
“When reviewing a judgment dismissing a com­
plaint after the granting of a demurrer without leave
to amend, courts must assume the truth of the com­
plaint’s properly pleaded or implied factual allega­
tions. (Blank v. Kirwan (1985) 39 Cal.3d 311, 318.)
Courts must also consider judicially noticed matters.
(Ibid.) In addition, we give the complaint a reasonable
interpretation, and read it in context. (Ibid.) If the
trial court has sustained the demurrer, we determine
whether the complaint states facts sufficient to state a
cause of action. If the court sustained the demurrer
without leave to amend, as here, we must decide
whether there is a reasonable possibility the plaintiff
could cure the defect with an amendment. (Ibid.) If we
find that an amendment could cure the defect, we con­
clude that the trial court abused its discretion and we
reverse; if not, no abuse of discretion has occurred.
(Ibid.) The plaintiff has the burden of proving that an
3 Leeds does not challenge the court’s ruling that his unfair
business practices claim failed because it was derivative of the
Unruh Act claim.

App. 6
amendment would cure the defect. {Ibid.)” (Schifando
v. City of Los Angeles (2003) 31 Cal. 4th 1074,1081.)
“In light of these principles, the difficulties in de­
murring on statute of limitations grounds are clear:
‘(1) trial and appellate courts treat the demurrer as ad­
mitting all material facts properly pleaded and (2) res­
olution of the statute of limitations issue can involve
questions of fact. Furthermore, when the relevant facts
are not clear such that the cause of action might be,
but is not necessarily, time-barred, the demurrer will
be overruled. [Citation.] Thus, for a demurrer based on
the statute of limitations to be sustained, the untime­
liness of the lawsuit must clearly and affirmatively ap­
pear on the face of the complaint and matters judicially
noticed. [Citation.]’ [Citations.]” (Austin v. Medicis
(2018) 21 Cal.App.5th' 577, 585 (Austin).)
2. Statute of Limitations
Hanmi contends that the first cause of action for
violation of the Unruh Act is subject to a two-year stat­
ute of limitations. (§ 335.1; see also Gatto v. County of
Sonoma (2002) 98 Cal.App.4th 744, 754-760.) Leeds
agrees.4
4 Apparently, however, courts are divided as to which statute
of limitations governs a claim under the Unruh Act: the two-year
limitations period for personal injuries (§ 335.1) or the three-year
limitations period for a liability created by statute (§ 338, subd.
(a)). (See Semler v. General Electric Capital Corp. (2011) 196
Cal.App.4th 1380, 1387.) It makes no difference here because
Leeds filed the lawsuit more than three years after his cause of
action accrued.

App. 7
3. Accrual and the Discovery Rule
A “ ‘statute of limitations does not begin to run un­
til the cause of action accrues, that is, “ ‘until the party
owning it is entitled to begin and prosecute an action
thereon.’” [Citation.]’ [Citation.] Thus, to determine
when the statutes of limitations ended, we must first
address when they began.” (Austin, supra, 21
Cal.App.5th at pp. 587-588.) “Generally speaking, a
cause of action accrues at ‘the time when the cause of
action is complete with all of its elements.’ [Citations.]”
(Fox v. Ethicon Endo-Surgery, Inc. (2005) 35 Cal.4th
797, 806-807 (Fox).)
“An important exception to the general rule of ac­
crual is the ‘discovery rule,’ which postpones accrual of
a cause of action until the plaintiff discovers, or has
reason to discover, the cause of action. [Citations.]”
(Fox, supra, 35 Cal.4th at p. 807.) “A plaintiff has rea­
son to discover a cause of action when he or she ‘has
reason at least to suspect a factual basis for its ele­
ments.’ [Citations.] Under the discovery rule, suspicion
of one or more of the elements of a cause of action, cou­
pled with knowledge of any remaining elements, will
generally trigger the statute of limitations period. [Ci­
tations.]” (Ibid.) “In other words, plaintiffs are required
to conduct a reasonable investigation after becoming
aware of an injury, and are charged with knowledge of
the information that would have been revealed by such
an investigation.” (Id. at p. 808.)
“[T]o rely on the discovery rule for delayed accrual
of a cause of action, la] plaintiff whose complaint shows

App. 8
on its face that his claim would be barred without the
benefit of the discovery rule must specifically plead
facts to show (1) the time and manner of discovery and
(2) the inability to have made earlier discovery despite
reasonable diligence.’ [Citation.] In assessing the suffi­
ciency of the allegations of delayed discovery, the court
places the burden on the plaintiff to ‘show diligence’;
‘conclusory allegations will not withstand demurrer.’
[Citation.]” {Fox, supra, 35 Cal.4th at p. 808.)
While belated discovery is usually a question of
fact, it may be decided as a matter of law when reason­
able minds cannot differ. {E-Fab, Inc. v. Accountants,
Inc. Services (2007) 153 Cal.App.4th 1308, 1320.)
“Thus, when an appeal is taken from a judgment of
dismissal following the sustention of a demurrer, ‘the
issue is whether the trial court could determine as a
matter of law that failure to discover was due to failure
to investigate or to act without diligence.’ [Citation.]”
{Ibid.)
4. The Unruh Act claim is untimely.
Hanmi argues that Leeds’s Unruh Act cause of ac­
tion accrued no later than January 2014, when the
bank’s refusal to increase LMS’s line of credit caused
the company to fail and Leeds to file for personal bank­
ruptcy. As he did not file this action until November 30,
2017, almost four years later, Leeds’s claim is timebarred.
Leeds argues that his lawsuit was timely under
the discovery rule. Specifically, he asserts that he did

App. 9
not know, and had no way to learn, that he had been
wronged until August 2017, when he consulted with
an attorney who informed him that Hanmi did not in­
crease the promised line of credit because the bank
discriminated in favor of its Korean customers and
customers of Korean descent. But that issue is irrele­
vant. For purposes of starting, or tolling, the running
of the statute of limitations, the question is not when
Leeds discovered that he may have a legal claim for
recovery against the bank based on illegal discrimina­
tion. It is the discovery of facts, not their legal signifi­
cance, that starts the running of the statute of
limitations. (See Jolly v. Eli Lilly & Co. (1988) 44
Cal.3d 1103,1113; see also Gutierrez v. Mofid (1985) 39
Cal.3d 892, 898 [“It is irrelevant that the plaintiff is
ignorant of his legal remedy or the legal theories un­
derlying his cause of action.”!.)
Based on the allegations in the operative pleading,
Leeds knew by January 2014 that Hanmi had reneged
on its promise to increase LMS’s line of credit, and that
Leeds and LMS had been harmed by the bank’s broken
promise. As such, he was required to conduct a reason­
able investigation of all potential causes of that injury.
{Fox, supra, 35 Cal.4th at pp. 808-809.) And to ade­
quately allege facts supporting a theory of delayed dis­
covery, Leeds was required to plead that, despite
diligent investigation of the circumstances of the in­
jury, he “could not have reasonably discovered facts
supporting the cause of action within the applicable
statute of limitations period.” {Id. at p. 809.) Here, the
operative pleading does not allege what specific efforts,

App. 10
if any, Leeds made before August 2017 to discover the
potential causes of his injury, or why he waited until
August 2017 to consult with an attorney. Accordingly,
Leeds did not meet his burden under the delayed dis­
covery rule.
5. The court properly sustained the demurrer
without leave to amend.
Leeds’s Unruh Act cause of action accrued no later
than January 2014, and thus, the lawsuit filed in No­
vember 2017 was untimely. Therefore, the court
properly sustained the demurrer without leave to
amend on timeliness grounds. As Leeds has not identi­
fied any way in which another opportunity to amend
his complaint would cure this problem, the court did
not abuse its discretion by denying leave to amend.
DISPOSITION
The judgment is affirmed. Hanmi Bank shall re­
cover its costs on appeal.
NOT TO BE PUBLISHED IN
THE OFFICIAL REPORTS
LAVIN, J.
WE CONCUR:
EDMON, P. J.
DHANIDINA, J.

App. 11
Lisa J. Yang (SBN 208971)
Lisa.Yang@LimNexus.com
Alexander Su (SBN 297869)
Alexander.Su@LimNexus.com
LIMNEXUS LLP
707 Wilshire Boulevard, 46th Floor
Los Angeles, CA 90017
Phone:(213)955-9500
Fax: (213) 955-9511
Attorneys for Defendant
HANMI BANK
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES
CENTRAL DISTRICT |
STANLEY MOSK COURTHOUSE
LEEDS MATTRESS
STORES, INC.,
a California corporation;
NEIL LEEDS,
an individual,

Case No, BC685311
[Assigned for all purposes
to Dept. 24 Hon. Patricia D.
Nieto presiding]

[AMENDED PROPOSED]
JUDGMENT OF DISMIS­
SAL WITH PREJUDICE
vs.
AFTER SUSTAINING OF
HANMI BANK,
DEMURRER TO SEC­
a California corporation; OND AMENDED COM­
and DOES 1 to 1000,
PLAINT WITHOUT
inclusive,
LEAVE TO AMEND
Defendants.
(Filed Sep. 20, 2018)
Plaintiffs,

Complaint Filed:
November 30, 2017

App. 12
DEPARTMENT 24 LAW AND MOTION RULINGS
DEPARTMENT 24 - LAW AND
MOTION RULINGS
Submission Instructions
1. Please notify the courtroom staff by email not later
than 4:00 p.m. the day before the hearing if you wish
to submit on the tentative ruling rather than argue
the motion. The email address is SMCDEPT24@
lacourt.org. Please do not use any other email address.
2. If you submit on the tentative, you must immedi­
ately notify the other side that you will not appear at
the hearing. You must include the other parties on the
email by “cc.”
3. Include the word “SUBMISSION” in all caps in
the Subject line and include your name, contact infor­
mation, case name and number, date of hearing and
the party you represent in the body of the email. If you
submit on the tentative and elect not to appear at the
hearing, the opposing party may nevertheless appear
at the hearing and argue the motions.
4. Include the words “SUBMISSION BUT WILL AP­
PEAR” if you submit, but one or both parties will nev­
ertheless appear.
5. OFF-CALENDAR should appear in all caps in the
Subject line where all parties have agreed to have a
motion placed off-calendar and parties are ordered to
cancel the reservation on CRS.

App. 13
6. If all parties submit, the tentative ruling will be­
come the final ruling after the hearing date. The mov­
ing party shall give notice of the final ruling.
7. Tentative rulings are not invitations or opportuni­
ties to file further documents relative to the hearing
before the Court. Said document(s) will not be consid­
ered by the Court.
(Posted 7/11/18)
Case Number: BC685311 Hearing Date: August 09,
2018 Dept: 24
Defendant’s Demurrer to the Second Amended Com­
plaint is SUSTAINED on all grounds.
Background:
On November 30,2 017, Plaintiffs Leeds Mattress Stores,
Inc. (“Leeds Mattress”) and Neil Leeds (“Leeds”) com­
menced this action against Defendant Hanmi Bank
(“Hanmi”) alleging two causes of action for violation of
Civil Code §§ 51(b) and 51.5 and unfair business prac­
tices under Bus. & Prof. C. § 17200 et seq. While a
demurrer was pending, Plaintiffs timely filed a first
amended complaint (“FAC”) alleging the same two
causes of action. On May 14,2018, the Court sustained
Hanmi’s demurrer to each cause of action with leave to
amend. The Court advised Plaintiffs that this would be
the last opportunity to amend. On June 4,2018, Plain­
tiffs filed the operative second amended complaint
(“SAC”) alleging the same two causes of action:

App. 14
violation of Civil Code §§ 51(b) and 51.5 and unfair
business practices under Bus. & Prof. C. § 17200 et seq.
The SAC alleges the following facts: In October 2006,
Leeds Mattress was approached by its biggest compet­
itor in Southern California, Sit & Sleep, to sell Leeds
Mattress for $7,500,000 plus a continuing salary of
$100,000 per year to Leeds as general manager and TV
advertising personality (“Sit & Sleep Deal”). The deal
took over a year and a half to progress to closing escrow
instructions and wire instructions for payment at close
of escrow. In or about November 2007, officers and em­
ployees of Hanmi (Daniel Ju, John Park, John Ju, Jung
Hak Son, Wu. Young) approached Plaintiffs with an of­
fer to support Plaintiffs’ expansion of their Southern
California operations by increasing Plaintiffs’ lines of
credit as needed to help expand Plaintiffs’ business.
Hanmi prepared growth projections which showed
that as of the commencement of this action, Leeds Mat­
tress would be worth in excess of $55,000,000. Relying
on such promise, in approximately November 2007
Plaintiffs canceled the Sit & Sleep Deal. Shortly there­
after, in March 2008, the expansion began in earnest.
Hanmi put its commitment in writing by letter dated
September 12, 2008, which Plaintiff provided to pro­
spective landlords and factories in support of its ex­
pansion efforts.
During the period between November 2007 and up
through Leeds’ personal bankruptcy filed on January
28, 2014, and concluded on December 30, 2014,
Hanmi’s employees, including Daniel Ju, John Park,
John Ju, Jung Hak Son, Wu Young, never expressed

App. 15
that the credit line would not be forthcoming; instead,
they always reassured Plaintiffs that they could not do
it now but would in the future. They always provided
Plaintiffs with a legitimate business reason why they
could not provide the credit increase as promised, in­
cluding an FDIC audit, tightening credit markets, etc.
At the time Hanmi was making its promises to Plain­
tiffs and counseling against the Sit & Sleep Deal,
Hanmi failed to disclose facts that only it knew, includ­
ing that Hanmi was bleeding millions a year in bad
loans and the credit markets were collapsing. When
the time came to increase Plaintiffs’ credit lines Hanmi
refused to keep its promises, did not increase Plaintiffs’
existing $1,000,000 credit line, and caused Plaintiffs’
business to fail, despite Plaintiffs’ “A+” rating with
Hanmi and timely payments to Hanmi for many years.
Plaintiffs further allege that within the past year, they
were informed that during the time Hanmi was break­
ing its promises to Plaintiffs to increase their credit
line, Hanmi was extending, issuing, and maintaining
lines of credit to less credit-worthy customers of Ko­
rean descent on higher risk loans. In fact, during the
entire banking relationship, and continuing to the date
of the filing of this complaint, Hanmi has engaged in a
pattern of practice of preferring customers of Korean
descent and national origin over its customers of other
races and national origins.
As a consequence of Hanmi’s illegal discrimination,
Leeds suffered a nervous breakdown and personal
bankruptcy in 2014, For a period of time, Leeds was so

App. 16
debilitated by his condition that he was unable to carry
out the normal affairs of life.
As of about four months before commencing this action
(at his initial meeting with counsel in August 2017),
and only after consulting with counsel about return of
banking records from Hanmi, Plaintiffs began to sus­
pect or had reason to suspect that illegal discrimina­
tion was the cause of their damages. Prior to that date,
Plaintiffs had no reason to suspect illegal discrimina­
tion and wrongful conduct towards Plaintiffs, includ­
ing preferring Korean customers over other customers
of different races and/or national origins. The type of
illegal discrimination alleged by Hanmi is covert ra­
ther than overt, not the type amenable to discovery by
ordinary means, not the type that has ever been publi­
cized or reported. But for their counsel’s research into
Korean banking discrimination (not something that
is common knowledge), Plaintiffs would never have
known or even had reason to suspect that illegal dis­
crimination was the cause of their damages or that any
wrongdoing had even occurred. On information and be­
lief, Hanmi’s refusal to provide documents voluntarily
prior to the lawsuit is an attempt to conceal its illegal
discrimination practices. Plaintiffs were so unaware of
Hanmi’s illegal conduct toward them that Leeds did
not list any claims for wrongful conduct in his personal
bankruptcy.

App. 17
Analysis
1.

Statute of Limitations and the Delayed Discovery
Rule
The statute of limitations for a claim Unruh Act is
2 years. (CCP § 335.1; Gatto v. County of Sonoma
(2002) 98 Cal.App.4th 744, 754-760 The statute of
limitations for a violation of the Unfair Competi­
tion Law (17200) is 4 years. (Bus. & Prof. § 17208.)
The wrongful acts alleged in the SAC occurred in
2008, i.e., Hanmi’s failure to extend Leeds Mat­
tress’ credit limit due to discrimination. This is
well beyond the statute of limitations for both
causes of action.
Plaintiffs attempt to plead around the statute of
limitations issue by pleading delayed discovery.
“Under the discovery rule, the statute of limita­
tions begins to run when the plaintiff suspects or
should suspect that her injury was caused by
wrongdoing, that someone has done something
wrong* to her . . . [The limitations period begins
once the plaintiff has notice or information of cir­
cumstances to put a reasonable person on inquiry” (Jolly v. Eli Lilly & Co. (1988) 44 Cal.3d
1103, 1110-1111 [internal quotation marks, foot­
note and citations omitted; emphasis in original].)
To properly plead delayed discovery the plaintiff
“must specifically plead facts to show (1) the time
and manner of discovery and (2) the inability to
have made earlier discovery despite reasonable
diligence.” Fox v. Ethicon Endo-Surgery, Inc. (2005)
35 Cal.4th 797, 808 (emphasis in original). Inother words, “[ijn order-to adequately-allege facts
supporting a theory of delayed discovery, the

App. 18
plaintiff must plead that, despite diligent investi­
gation of the circumstances of the injury, he or she
could not have reasonably discovered facts sup­
porting the cause of action within the applicable
statute of limitations period.” Id. at 809.
“When a plaintiff reasonably should have discov­
ered facts for purposes of the accrual of a case of
action or application of the delayed discovery rule
is generally a question of fact, properly decided as
a matter of law only if the evidence (or, in this case,
the allegations in the complaint and fact properly
subject to judicial notice) can support only one rea­
sonable conclusion.” (Broberg v. The Guardian Life
Ins. Co. of America (2009) 171 Cal.App.4th 912,
921.)
Hanmi correctly argues that Plaintiffs have failed
to plead facts sufficient to establish delayed dis­
covery. Plaintiffs have failed to allege the specific
manner of delayed discovery other than to vaguely
assert that four months before commencing this
action they learned of the wrongful acts after con­
sultation with counsel in August 2017 regarding
the return of Plaintiffs’ banking records from
Hanmi. Plaintiffs fail to allege how the consulta­
tion lead to the discovery of facts to support dis­
crimination, what facts existed to lead to the
suspicion that Hanmi discriminated against
Plaintiffs, and when Plaintiffs’ counsel learned of
these facts.
Further, Plaintiffs have not alleged any facts
showing their inability to have made an earlier
discovery despite their reasonable diligence. Ac­
cording to the SAC, Plaintiffs allege Hanmi falsely

App. 19
promised to increase Leeds Mattress’s credit lines
ten years ago in 2008. When Hanmi subsequently
refused to do so, Plaintiffs were put on notice that
Leeds Mattress had been harmed by Hanmi in
some way. Plaintiffs have not alleged any facts
showing reasonable diligence at that point to dis­
cover any potential wrongdoing on Hanmi’s part,
such as hiring an attorney as they did in 2017, or
that they could not discover such wrongdoing
through reasonable diligence. Since it only took
consultation with counsel four months before com­
mencing this action to discover Hanmi’s wrongful
conduct, Plaintiffs fail to explain why they could
not do so within the limitations period. Accord­
ingly, Plaintiffs have failed to allege delayed dis­
covery and both causes of action are time barred.
The demurrer to the first and second causes of
action is SUSTAINED based on the applicable
statute of limitations.
2.

First Cause of Action: Violation of Civil Code
SS 51(b) and 51.5
a.

Leeds - Standing
“The prerequisites for standing to assert stat­
utorily based causes of action are determined
from the statutory language, as well as the
underlying legislative intent and the purpose
of the statute.” (Osborne v. Yasmeh (2016) 1
Cal.App.5th 1118,1125-1126.)
The Unruh Civil Rights Act states, “All per­
sons within the jurisdiction of this state are
free and equal, and no matter what their
sex, race, color, religion, ancestry, national
origin, disability, medical condition, genetic

App. 20
information, marital status, sexual orienta­
tion, citizenship, primary language, or immi­
gration status are entitled to the full and
equal accommodations advantages, facilities,
privileges, or services in all business estab­
lishments of every kind whatsoever.” (Civ.
Cod. § 51(b).) The primary purpose of the Act
“is to compel recognition of the equality of all
persons in the right to the particular service
offered by an organization or entity covered by
the act.” 0Curran v. Mount Diablo Council of
the Boy Scouts (1983) 147 Cal.App.3d 712,
733.)
Civil Code section 51.5(a) provides:
No business establishment of any kind what­
soever shall discriminate against, boycott or
blacklist, or refuse to buy from, contract with,
sell to, or trade with any person in this state
on account of any characteristic listed or de­
fined in subdivision (b) or (e) of Section 51, or
of the persons’ partners, members, stockhold­
ers, directors, officers, managers, superinten­
dents, agents, employees, business associates,
suppliers, customers, because the person is
perceived to have one or more of those charac­
teristics, or because the person is associated
with a person who has, or is perceived to have,
any of those characteristics. Standing under
the Act is broad. (Osborne v. Yeshmeh (2016) 1
Cal.App.5th 1118, 1127.) “[A]n individual
plaintiff has standing under the Act if he or
she has been the victim of the defendant’s dis­
criminatory act.” (Angelucci v. Century Supper
Club (2007) 41 Cal.4th 160, 175 (Angelucci).)

App. 21
The protection afforded by the Act applies to
“all persons,” and is not confined to a limited
category of “protected classes.” (Marina Point,
Ltd. v. Wolfson (1982) 30 Cal.3d 721, 730.)
“The focus of the standing inquiry is on the
plaintiff, not on the issues he or she seeks to
have determined; he or she must have a spe­
cial interest that is greater than the interest
of the public at large and that is concrete and
actual rather than conjectural or hypothet­
ical.” (Osborne, supra, 1 Cal.App.5th at 1127.)
Thus, based on the language of the Act and
the case law interpreting it, the question is
whether Leeds himself was denied “full and
equal accommodations, advantages, facilities,
privileges, or services” from Hanmi. (See, e.g.,
Osborne, supra, 1 Cal.App.5th at 1127; Evans
v. Fong Poy (1941) 42 Cal.App.2d 320, 321
[court affirmed judgment in favor of AfricanAmerican couple against cafe for violation of
the Act where cafe refused to serve the couple
because of their race favor].)
Hanmi argues that Leeds lacks standing to
bring a claim under the Act because he fails
to plead any personal injury to himself and
Hanmi’s failure to honor the promise to ex­
tend lines of credit to expand Leeds Mattress
does not alone confer standing to Leeds indi­
vidually. Plaintiffs argue and allege in the
SAC that Leeds has separate standing to sue
individually as an “associated person” as pro­
vided in the Act since it was his characteris­
tics or perceived characteristics that were the
basis of Hanmi’s discrimination and as the
sole owner Leeds lost millions of dollars.

App. 22
Leeds relies on the decision in Osborne to sup­
port his contention that he has standing as an
“associated person.” His reliance on Osborne
his misplaced. In Osborne, the Second Dis­
trict Court of Appeal considered a disabled
man, his wife, and two stepsons’ case against
a hotel. {Osborne, supra, 1 Cal.App.5th at
1122.) The hotel refused to rent a room to the
disabled man unless he paid a nonrefundable
cleaning fee related to his service dog. {Id.)
The man’s wife and stepsons were also denied
a room-based-on-the marts refusal to pay the
fee. {Id.) After analyzing the language and
history of the Unruh Act and cases interpret­
ing it, the court stated “that when a person
presents himself or herself at a business es­
tablishment, and is personally discriminated
against based on one of the characteristics ar­
ticulated in section 51, he or she has suffered
a discriminatory act and therefore has stand­
ing under the Unruh Act. And when such dis­
crimination occurs, a person has standing
under section 51.5 if he or she is 'associated
with’ the disabled person and has also person­
ally experienced the discrimination.” {Id. at
1134 [emphasis added].) The court found that
because the man had standing to sue, his
wife and stepsons also had standing to sue un­
der Civil Code § 51.5 since they were associ­
ated with him and had directly experienced
the hotel’s discriminatory conduct. {Id. at
1122.)
Here, the SAC does not allege that Hanmi
denied Leeds himself a separate individual
credit line extension. It only alleges that

App. 23
Harimi denied Leeds Mattress credit exten­
sions. Thus, Leeds did not personally experi­
ence such discrimination. The fact that he did
not realize the $55,000,000 increase in valua­
tion of Leeds Mattress as its sole owner is ir­
relevant. In any event, an individual may not
recover for an injury to his corporation. CKruse
v. Bank ofAmerica (1988) 201 Cal.App.3d 354,
65.) Additionally, unlike the disabled man in
Osborne, Leeds Mattress does not have a pro­
tectable characteristic. Accordingly, Leeds
lacks standing to bring a claim under the
Unruh Act. The demurrer to the first cause of action is SUSTAINED as to Leeds because he
lacks standing to sue.
b.

Hanmi - Failure to State a Claim
To- state a cause of action under Civil Code
§ 51, a claim must state (1) that the defendant
denied full and equal services to the plaintiff;
(2) that a substantial motivating reason for
the defendant’s conduct was [a] its perception
of the protectable characteristic(s) of the
plaintiff or [b] its perception of the protectable
characteristic(s) of the plaintiff’s partners,
members, stockholders, directors, officers,
managers, superintendents, agents, employ­
ees, business associates, suppliers, customers,
or [c] its perception of the protectable charac­
teristics) of a person with whom the plaintiff
was associated; (3) that the plaintiff was
harmed; and (4) that the defendant’s conduct
was a substantial cause of the harm. (See
Harris v. City of Santa Monica (2013) 56

App. 24
Cal.4th 203, 232 [in FEHA case “substantial
motivating reason” has been held to be the ap­
propriate standard under the FEHA to ad­
dress the possibility of both discriminatory
and nondiscriminatory motives]; CACI Nos.
2507, 3060.)
To state a valid cause of action under Civil
Code § 51.5, a claim must state (1) that the
defendant discriminated against the plaintiff;
(2) that a substantial motivating reason for
the discrimination was its perception of either
the plaintiffs protectable characteristic or its
association with a person possessing the pro­
tectable characteristic; (3) that the plaintiff
was harmed; and (4) that the defendant’s con­
duct was a substantial factor in causing the
harm. (See Harris, supra, 56 Cal.4th at 232;
CACI Nos. 2507,3061.)
Here, the SAC alleges that Leeds is a nonKorean and an officer, owner, and shareholder
of Leeds Mattress. The SAC alleges that
Hanmi discriminated against Leeds Mattress
because Leeds, the owner and shareholder
and only natural person to conduct business
on behalf of Leeds Mattress, was a Caucasian
born in the U S Hanmi discriminated against
Leeds Mattress by failing to offer the same ac­
commodations and services as those offered to
Hanmi’s Korean customers, who were given
preferred accommodations and services over
all others of all other national origins. Plain­
tiffs believe Hanmi has made it their business
practice to prefer certain customers over

App. 25
others based on race and national origin and
provide services and accommodations, such as
issuance, maintenance, and extension of lines
of credit which are not available to nonKorean customers in direct violation of the
Unruh Act. As a direct result, Plaintiffs have
been damaged in an amount of no less than
$55,000,000, i.e. the amount Hanmi estimated
Leeds Mattress would be worth after the ex­
pansion.
Plaintiffs base their Unruh claim on Hanmi’s
perception of Leeds’ nationality as a nonKorean officer, owner, and shareholder of
Leeds Mattress. However, the SAC fails to al­
lege that Leeds’ nationality was a substantial
factor for Hanmi’s conduct rather than simply
a motivating factor. (See Harris, supra, 56
Cal.4th at 232 [“Requiring the plaintiff to
show that discrimination was a substantial
motivating factor, rather than simply a moti­
vating factor, more effectively ensures that li­
ability will not be imposed based on evidence
of mere thoughts or passing statements unre­
lated to the disputed employment decision.”].)
Accordingly, Plaintiffs have not plead facts
sufficient to constitute a cause of action
against Hanmi. The demurrer to the first
cause of action is SUSTAINED as against
Hanmi for failure to state a claim.

App. 26
3.

2nd C/A: Violation of the UCL (Bus. & Prof. C.
§ 17200. et seq.)
Because the second cause of action is derivative of
the first cause of action, it fails for the same rea­
sons. Therefore, the demurrer to the second cause
of action, is SUSTAINED for failure to state a
claim.

Moving party is ordered to give notice.

App. 27
Court of Appeal, Second Appellate District, Division
Three - No. B294238
S265982
IN THE SUPREME COURT OF CALIFORNIA
En Banc
LEEDS MATTRESS STORES, INC., et al.,
Plaintiffs and Appellants,
v.
HANMI BANK, Defendant and Respondent.
(Filed Feb. 10, 2021)
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

j

App. 28
COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
LEEDS MATTRESS STORES,
INC.,
Plaintiff and Appellant,
v.

No. B294238
Los Angeles County
Superior Court
No. BC685311

HANMI BANK,
Defendant and Respondent.
MOTION TO RECALL THE REMITTITUR AND
REINSTATE THE APPEAL RELATED TO
LEEDS MATTRESS STORES, INC. OR IN
THE ALTERNATIVE, PERMIT APPELLANT
TO AMEND THE NOVEMBER 30, 2018
NOTICE OF APPEAL TO INCLUDE LEEDS
MATTRESS STORES, INC. AS A PARTY
TO THE PRESIDING JUSTICE, AND TO THE ASSO­
CIATE JUSTICES OF THE COURT OF APPEAL,
SECOND DISTRICT:
The Appellant, Neil Leeds, respectfully moves this
Court for an order recalling the remittitur and permit­
ting the reinstatement of his appeal in this case as it
pertains to Leeds Mattress Stores, Inc.
This motion is based upon the following points and
authorities and the attached declaration.

App. 29
DATED: May 30, 2019
Respectfully submitted,
/s/ Corey Evan Parker
Corey Evan Parker,
Attorney at Law
1230 Rosecrans Avenue
Suite 300
Manhattan Beach, CA 90266
Tel.: (424) 456-3193
Fax: 1 (877) 802-8580
corey@coreyevanparkerlaw.com
Attorney for Appellant

INTRODUCTION
This is a unique case where Appellant filed a no­
tice of appeal on behalf of himself and his corporation,
but due to a financial hardship, he could not afford to
hire appellant counsel to represent his corporation.
Unlike a criminal case, where an indigent person can
obtain appointed counsel, Appellant was on his own to
prosecute his appeal due to his indigent status.
As a pro per litigant on appeal, he diligently filed
a timely notice of appeal on behalf of himself and his
corporation, he was granted a fee waiver, he filed a
proper case information statement, and he filed a
proper notice designating record. He attempted to have
his appeal remain in compliance while he aggressively
pursued hiring an attorney to represent him and his
corporation. He was instructed by this Court to provide

App. 30
a letter evidencing his intent to hire an attorney to rep­
resent his corporation and he did so within the time
allowed.
Appellant was reasonably confused when he did in
fact file a fee waiver, a case information statement and
a notice designating record, but his appeal related to
the corporation was dismissed for failure to file the
aforementioned. He reasonably believed, as a pro per
litigant, that the case information statement and no­
tice designating record would apply to both himself
and his corporation. He also had previously filed evi­
dence that the fee waiver was granted as it pertains to
his corporation.
After numerous attempts to find an attorney, Ap­
pellant finally spoke with his current counsel who pro­
vided him a significant discount of his fees in order to
help him move to remedy this appeal and to represent
both him and his corporation on appeal. The same day
his attorney entered his substitution of counsel, he is
filing this motion to recall the remittitur or in the
alternative, to amend the notice of appeal filed on
November 30, 2018 to include the corporation.
POINTS AND AUTHORITIES IN SUPPORT OF
MOTION TO RECALL REMITTITUR OR
AMEND THE NOTICE OF APPEAL
This court has the power to recall a remittitur for
good cause. California rule of court 8.272(c)(2) provides
that “[o]n a party’s own motion or on stipulation, and
for good cause, the court may stay a remittitur’s

App. 31
issuance for a reasonable period or order its recall.”. ..
In this case, Appellant asks this Court to find that he
has presented good cause to recall the remittitur. In
the alternative, Rule 8.60(d) of the California rules of
court allows a reviewing court, for good cause, to re­
lieve a party from default from any failure to comply
with the rules—“except the failure to file a timely no­
tice of appeal.” If the court does not find good cause to
recall the remittitur, Appellant respectfully requests,
in the alternative, for this Court to permit Appellant to
amend his notice of appeal, filed November 30,2018 to
include his corporation as he reasonably believed his
notice of appeal would be applicable to both parties.
Following the order and judgment entered on Sep­
tember 20,2018 in Los Angeles County No. BC685311,
appellant filed a notice of appeal naming himself as
a party on November 30, 2018. (See COA Docket,
12/6/18). The Superior Court acknowledged his filing
on December 3, 2018. At this point, Appellant believed
his notice of appeal included both himself as a party
and his corporation. Leeds Decl. at f 3. After consulting
with a paralegal, he discovered that he also needed to
file a separate notice of appeal related to his corpora­
tion. Id. He filed a timely cross appeal, 20 days later,
naming his corporation, Leeds Mattress Stores, Inc. as
the other party to the appeal on December 24, 2018.
(See COA Docket 1/3/19).
On January 3,2018, this Court provided Appellant
a letter advising that a corporation may only partici­
pate in the appeal through an attorney and ordered
that Appellant file a letter within 20 days stating an

App. 32
intention to continue with the appeal and describing
the status of any continuing effort of retaining an at­
torney. (See COA Docket, 1/3/18). Appellant complied
and filed a timely letter on January 18, 2019, stating
his intention to continue with the appeal and repre­
senting that he was diligently making an effort to hire
an attorney to represent the corporation. (See COA
Docket, 1/18/19).
Appellant continued calling attorneys, but due to
his financial hardship, as evidenced by the fee waiver
granted on his behalf (See COA Docket 12/7/18, he was
unable to find an appeals attorney that he could afford
despite his diligent efforts to secure one. Leeds Decl. at
f 6,14.
On February 27,2018, Appellant was found to be in
default for not filing a proof of service with respect to his
notice of appeal. (See COA Docket, 2/27/18). He remedied
this default on March 14, 2019 and on March 19, 2019,
this Court provided an order stating the following:
“Good cause appearing, Appellant is granted
relief from any and all current defaults occa­
sioned by his/her failure to perform acts re­
quired by the rules of court for procuring the
record on appeal. The clerk of the Superior
Court is ordered to proceed with the prepara­
tion of the record on appeal. N/A filed 11/30/18
for Neil G. Leeds.”
(See COA Docket, 3/19/19).
Based on the aforementioned, Appellant believed
he was in full compliance and his only obligation was

App. 33
to find an attorney as soon as possible. Although the
last line stated “N/A filed 11/30/18 for Neil G. Leeds,”
Appellant, as a lay person, did not understand “N/A”
meant “notice of appeal.” He also did not understand
that this relief from default only applied to the appeal
pertaining to only his personal appeal and not his cor­
porate appeal. Leeds Decl. at 9,10.
On March 20, 2019, Appellant received a default
notice that the designation was not filed with respect
to Leeds Mattress Stores, Inc. Appellant was reasona­
bly confused about this notice because he had already
filed his designation and the case information state­
ment with respect to himself as a party. He did not un­
derstand that a separate one needed to be filed as to
his corporation. Leeds Decl. at f 9,10.
During the aforementioned timeframe, Appellant
travelled to court to speak with clerks at the appellate
desk on numerous occasions to ensure he was in com­
pliance and try to stay on top of the filings required.
Leeds Decl. at 12.
On April 25, 2019, a remittitur was issued regard­
ing Leeds Mattress Stores, Inc., much to the appel­
lant’s surprise, as he never received the dismissal
order from the court. Leeds Decl. at % 13. The dismissal
and remittitur was issued because the fees were not
paid, the case information statement had not been
filed, and no substitution of attorney had been filed.
There does not appear to be a docket entry with respect
to the dismissal, but Appellant contends that he never
received the dismissal order.

App. 34
Appellant had already been approved for the
waiver of fees as it pertained to his corporation. See
Attachment “A,” fee waiver for Leeds Mattress
Stores, Inc. He had also filed his case information
statement on January 18, 2019 and believed that it
would apply to both himself and his corporation. Fi­
nally, he was still attempting to hire an attorney, but
he was not able to afford the fees attorneys were quot­
ing him. The majority of attorneys were quoting over
$20,000.00 and based on his financial hardship, he
could not afford any of them. He had filed bankruptcy
and did not have the financial means to hire an attor­
ney until May 30,2019 when he hired current counsel.
Leeds Decl. at 31 7. His financial circumstances were so
dire at one point that he was temporarily homeless.
Appellant desperately reached out to his trial
counsel, who handled the litigation in the trial court
on a contingency fee to see if he could find him an at­
torney. After some effort, his trial attorney contacted
current counsel, Corey Parker (“Attorney Parker”),
explained his client’s circumstances, and Attorney
Parker significantly reduced his fees in order to help
Appellant move to restore this appeal and represent
him personally on the appeal as well as his corpora­
tion. A substitution of counsel was filed by Attorney
Parker on May 30, 2019 and this motion is being filed
on the same day. Leeds Decl. at f 15
Appellant, a layperson of the law, should not be
penalized for being ignorant of appellate procedures.
(People v. Davis (1965) 62 Cal.2d 806.) Appellant sin­
cerely believed that when he filed the case information

App. 35
statement and the designation, it would apply to both
himself and his corporation. It is not as though he did
not file anything related to his appeal or did not dili­
gently attempt to keep his appeal alive. He thought
that he had more time to secure counsel in light of the
letter he filed explaining his efforts to hire an attorney
and the fact that the record was not yet filed with this
Court.
Appellant respectfully requests this court to con­
sider his application in light of the standards an­
nounced in People v. Ribero (1971) 4 Cal.3d 55,65, that
the power of appellate courts to grant relief from de­
fault “ ... is to be liberally construed to protect the
right to appeal.”
The crux of this case is the. fact that Appellant
could not afford counsel for his corporation, nor was he
initially aware that he could not represent his corpora­
tion pro per despite being the only member of the cor­
poration. Despite that fact, he managed to file all of the
appropriate documents to keep his appeal going and he
reasonably believed the documents he filed applied to
both himself and his corporation.
He currently has appellant counsel who has been
retained to represent him on his appeal at a signifi­
cantly discounted rate and can assure the Court that
if provided the chance to continue with his corporation
as a party, he will be fully compliant.
He also will have his counsel immediately help
him remedy the reasons for the default.

App. 36
Appellant contends that there is good cause to re­
call the remittitur and that the opposing party will suf­
fer no prejudice if the remittitur is recalled because the
appeal pertaining to himself as an individual party is
still pending. Either way, the opposing party will be a
party to the appeal so it will not causeundue prejudice
to recall the remittitur and allow the corporation’s appeal to proceed., The record on appeal has not yet been
filed and recalling the remittitur will not cause an un­
reasonable delay in the appellate proceedings.
For all of the aforementioned reasons, Appellant
humbly requests that this Court recall the remittitur
and reinstate
Leeds .Mattress
Stores,,* •Inc.
as
a party to
^
* .i
'.
s
T
this appeal. In the alternative, Appellant requests that
this Court allow him to amend his appeal filed on No­
vember 30,2018 to include Leeds Mattress Stores, Inc.
as a party to the, appeal.
DATED: May 30,2019
Respectfully submitted,
IsI' Corey Evan Parker__________
Corey Evan Parker,
Attorney at Law
1230 Rosecrans Avenue
Suite 300
Manhattan Beach, CA 90266
Tel.: (424)456-3193
Fax: 1 (877) 802-8580
corey@coreyevanparkerlaw.com
Attorney for Appellant

App. 39
understanding at this point that I was in full compli­
ance with both appeals and still was being afforded
time to find an attorney while the record was being
prepared.
10/ I did1 not understand what “N/A filed 11/30/18 for
Neil G. Leeds,” meant at-the end-oLthe order and did
not think anything of it: I came to find out after talking
to my current counsel that “N/A” stood for notice of appeal and the notice was saying that I was granted relief
only as it pertained: to the appeal filed on November
30, 2018, not the appeal that was, related fo my corpo­
ration. Given that both the appeal under my name and
my corporation were, under the same case number, I
believed that a notice received would include both par­
ties involved.
11. On March 20, 2019, I received a default notice
that the designation was not filed with respect to Leeds
Mattress- Stores, Inc. L was.sincerely confused about
this notice because l had already filed his designation
and the case * information statement with respect to
himself as a party. I did not: understand that a separate
one needed to be filed as to1 my corporation.
y

.rv

1

12. During the aforementioned timeframe, I trav­
elled to the Superior Court to speak with clerks at the
appellate desk on numerous occasions.to. ensure I was
in compliance, to try and.clarify notices from the court,
and to diligently try to stay on top of the filings re­
quired.
/.
+

•

*

13. On April 25,2019, a remittitur was issued regard­
ing Leeds Mattress Stores, Inc., but I was not aware

i)

Eii
A

App. 40
that a remittitur was issued and frankly did not know
what a remittur was until I spoke with my current
counsel who looked at my COA docket.. The remittitur
was issued because the fees were not paid, the case
information statement had not been filed, and no sub­
stitution of attorney had been filed. There does not ap­
pear to be a docket entry with respect to the dismissal,
but I never received the dismissal order in the mail or
otherwise.
14. I do not understand why the appeal was dis­
missed for fees not being paid when I had filed an ap­
proved waiver of fees as it pertained to my corporation.
See Attachment “A,” fee waiver for Leeds Mattress
Stores, Inc. I had also filed his case information state­
ment on January 18, 2019 and believed that it would
apply to both myself and my corporation. Finally, I
was still attempting to hire an attorney, but I honestly
was not able to afford the fees attorneys were quoting
me. The majority of attorneys were quoting over
$20,000.00 and based on my financial hardship, I could
not afford any of them. I tried to explain to them my
financial hardship and they said they could not work
with me. My trial attorney, who represented me on a
contingency fee, also tried to help me find appellate
counsel.
15. After my trial attorney called around, he finally
spoke with Attorney Parker, my appellate attorney,
who was willing to discount his fees significantly to
help me attempt to remedy this situation and to repre­
sent me and my corporation on appeal. Mr. Parker was
hired on May 30, 2019, he filed a substitution on that

App. 41
date, and this motion and declaration is being filed on
the same day. We are attempting to be as diligent as
possible.
16. I really tried hard to comply with everything this
Court was asking me to do. I travelled to the court­
house to speak with the clerks, I called numerous at­
torneys to see if they could take my case or give me
advice, and I filed everything properly with respect to
the appeal as to me personally despite a couple default
notices that I remedied.
17. I sincerely believed that when I filed the case in­
formation statement and the designation, it would ap­
ply to myself and my corporation. I thought that I had
more time to secure counsel and I was not aware that
the appeal had been dismissed and a remittitur was
issued until I contacted current counsel.
18. I now finally have appellant counsel for myself
and my corporation, who has been retained to repre­
sent me at a significantly discounted rate and I can as­
sure the Court that if provided the chance to continue
with my corporation as a party, I will be fully compli­
ant.
19. I humbly ask this Court to find good cause to re­
call the remittitur and contend that the opposing party
will suffer no prejudice if the remittitur is recalled be­
cause the appeal pertaining to myself as an individual
is still pending. No additional briefing will be required,
as both myself and the corporation as parties will be
addressed in one singular brief. Either way, the

App. 42
opposing party will be a party to the appeal so it will
not cause undue prejudice to add the corporation.
20. In the alternative, if prudent, I would ask that
this Court allow me to amend my notice of appeal
dated November 30, 2018 to include the corporation.
Executed at Torrance, California on May 29, 2019.
I declare under penalty of perjury that the foregoing is
true and correct.
Neil Leeds, Appellant

